No. - - - - - - - -

INTHE
SUPREME COURT OF THE UNITED STATES
October Term 2020
DONALD GROCHOWSKI, as Administrator of the Estate of Kenneth Grochowski, et al.,
Applicants/Petitioners,
V.

CLAYTON COUNTY, GEORGIA, through its Chair and Commissioners in their official
capacities and KEMUEL KIMBROUGH in his official capacity, et al.,
Respondents.

CERTIFICATE OF SERVICE
This is to certify that John P. Batson, the undersigned Member of the Bar of the Supreme
Court, did this date cause a copy of the following: Petition for Writ of Certiorari and Appendix to
be served upon Respondents' and interested counsel:
~

E-mailing a copy of the same to the email addresses listed below on the date of
electronic filing, November 19, 2020.
·
Respondent's Counsel
Sun Choy
sunchoy@fmglaw.com
Jack R. Hancock
jhancock@fmglaw.com
Charles Reed
creed@fmglaw.com
A. Ali Sabzevari
asabzevari@finglaw.com
Counsel for former Defendant Correcthealth
Cynthia M. Daley
cdalev@brockmaninjurylawer.com
By delivering a paper copy of the same to a third-party commercial carrier,
for delivery within three calendar days, addressed as follows:
Attn: Mr. A. Ali Sabzevari 770.303.8633
Jack R. Hancock
404-366-1000
Charles Reed
404-366-1000
Sun Choy
770-818-0000
Freeman, Mathis, & Gary, LLP
661 Forest Parkway, Suite 205
Forest Park, GA 30297
CONTINUED ON NEXT PAGE

1

Cynthia Dale
John R. Brockman, PC
128 Newman Street
Carrolton, GA 30117

770-205-8887

I further certify, pursuant to Rule 29.5, that all parties required to be served have been served.
This 19th day of November, 2020.

~o~~
1104 Milledge Road
Augusta, GA 30904
706-73 7-4040
jpbatson@aol.com
Attorney for Applicants/Petitioners
Counsel of Record

2

